U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 10, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Bryan James Strother v. Baldwin Adjutant General,
California Army National Guard, et al.
S.CtNo. 19-224

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 16,
2019, and placed on the docket on August 20, 2019. The government's response is due on
September 19, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 21, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0224
STROTHER, BRYAN JAMES
DAVID S. BALDWIN, ADJUTANT GENERAL, CA.
ARMY NATIONAL GUARD, ET AL.

DANIEL C. WILLMAN
P.O. 606
P1NCKNEY, MI 48169
248-231-0705

